OFFICE OF
INSPECTOR GENERAL       Audit Report
                    Farm Credit Administration’s
                      Purchase Card Program

                              A-14-02

                         Auditor-in-Charge
                           Sonya Cerne

                     Issued September 5, 2014




                      FARM CREDIT ADMINISTRATION
    Farm Credit Administration                           Office of Inspector General
                                                         1501 Farm Credit Drive
                                                         McLean, Virginia 22102-5090




     
     
     
    September 5, 2014 
     
    The Honorable Jill Long Thompson, Board Chair  
    The Honorable Kenneth A. Spearman, Board Member 
    The Honorable Leland A. Strom, Board Member  
    Farm Credit Administration 
    1501 Farm Credit Drive 
    McLean, Virginia  22102‐5090 
       
    Dear Board Chair Long Thompson and FCA Board Members Spearman and Strom: 
     
    The Office of Inspector General (OIG) completed an audit of the FCA’s Purchase Card 
    Program.  The objective of this audit was to determine whether FCA’s oversight of the 
    purchase card program is effective.   
     
    During our review, we found that FCA’s oversight is effective.  FCA established and 
    implemented controls over the purchase cards, which lowers the risk to FCA.  Both 
    approving and OMS officials review purchase card activity.  Overall purchase cardholder 
    requirements are fully described.      
     
    We would like to highlight the responsive actions Office of Management Services (OMS) 
    plans to take to address the issues identified during the audit.  OMS agreed to the 
    following actions to improve the purchase card program: 
     
           1. Provide education to cardholders and Approving Officials on the light 
               refreshments policy and the preapproval, purchase activity log, convenience 
               check, and documentation requirements. 
                
           2. Distribute a template of an acceptable standard agency buy form. 
 
          3. Document justifications for cardholders with higher limits. 
              
          4. Document exceptions to current processes and ensure purchase cardholders and 
             Approving Officials understand the need for documenting approvals when 
             departing from policies and procedures. 
    We appreciate the courtesies and professionalism extended to OIG staff by FCA personnel.  
    If you have any questions about this audit, I would be pleased to meet with you at your 
    convenience. 
     
    Respectfully, 


                                               
    Elizabeth M. Dean 
    Inspector General 
     
    Enclosure 
OBJECTIVE:
To determine whether FCA’s
oversight of the purchase
card program is effective.

BACKGROUND:                     During our review, we found the Farm Credit Administration’s (FCA) oversight is
For some purchases, FCA         effective. FCA established and implemented controls over the purchase card
participates in the             program; therefore, lowering the risk to FCA. FCA established a process for
government-wide General         reviewing purchase card activity. Approving Officials have a defined role in the
Services Administration’s       purchase card program and are required to review all purchase activity for their
(GSA) SmartPay Purchase         respective cardholders. Office of Management Services (OMS) officials also review
Card Program and currently      the purchase card activity monthly. Overall purchase cardholder requirements are
contracts with the Bureau of    fully described. Only current FCA employees have purchase card accesses and
the Fiscal Service (BFS) for    cardholders generally had supporting invoices for purchases. No exceptions were
purchase card services.         noted during our review of selected training records and no instances of
Under the GSA Master            potentially fraudulent or illegal purchases were identified.
Contract, BFS uses Citibank
as the purchase card service    However, additional changes will improve the purchase card program. We found:
contractor. FCA pays all
purchase cards directly.            •   Purchase cardholders had not consistently followed established policies
OMS is responsible for the              and procedures. We judgmentally sampled 471 transactions and found 54
overall administration of the           transactions by cardholders that had not followed FCA policies and
charge card programs and                procedures. We identified nine transactions related to food purchases
management of the                       that did not follow FCA’s policy on light refreshments. We also identified
purchase card program.                  45 transactions with missing preapprovals, purchase activity log errors,
                                        and files lacking supporting documentation.
The Government Charge
Card Abuse Prevention Act           •   Certain processes and decisions involving purchase cards need to be
of 2012 and the Office of               documented. OMS had not documented the reasoning behind certain
Management and Budget’s                 cardholders with higher limits than the standard amount. Certain
Memorandum M-13-21,                     exceptions to FCA policy were in place but not documented. One
Implementation of the                   cardholder has approval to deviate from policy for certain transactions;
Government Charge Card                  yet, the justification of the approved exceptions are not in writing. Other
Abuse Prevention Act of                 cardholders obtained approvals from officials other than the documented
2012, mandated each                     Approving Official. However, these accepted exceptions were not
Inspector General perform,              documented.
at least annually, an
assessment of charge card       There are four agreed-upon actions to improve the oversight of the purchase card
programs. Therefore, we         program. OMS agreed with the report and provided specific tasks to be completed
completed a risk assessment     to strengthen FCA’s purchase card program.
and initiated this audit as
part of our ongoing efforts
in this area.
                                     Table of Contents



BACKGROUND ______________________________________________________________________ 1

 Prior OIG Audit ____________________________________________________________________ 1

 Prior OIG Inspections _______________________________________________________________ 2

OBJECTIVE, SCOPE, AND METHODOLOGY _________________________________________________ 2

AUDIT RESULTS ______________________________________________________________________ 4

 Established Purchase Card Policies and Procedures ________________________________________ 4

 Agreed Upon Actions 1-2 ____________________________________________________________ 6

 Undocumented Processes ___________________________________________________________ 7

 Agreed-Upon Actions 3-4 ____________________________________________________________ 8

ACRONYMS _________________________________________________________________________ 9
BACKGROUND

    The Farm Credit Administration (FCA) participates in the General Services Administration’s (GSA)
    SmartPay Program. FCA uses three types of charge card programs for official purchases related to the
    mission of the organization: purchase, travel, and fleet. Purchase card programs provide cards to
    Federal employees to make official Government purchases for supplies, goods, and services under the
    micro-purchase threshold of $3,000. Cardholders can purchase any commercially available supply or
    service within the spending limits and not prohibited by either Federal or agency-specific procurement
    regulations. Travel cards are used only for official travel and authorized travel-related expenses to
    include transportation, lodging, meals, and incidentals. Fleet cards are used for fuel, maintenance and
    repair of government owned/operated motor vehicles, aircraft, boats, and motorized equipment.

    For some purchases, FCA participates in the
    government-wide GSA SmartPay Purchase Card
    Program and currently contracts with the Bureau of
    the Fiscal Service (BFS) for purchase card services.
    Under the GSA Master Contract, BFS uses Citibank as
    the purchase card service contractor. FCA pays all
    purchase cards directly. FCA’s Office of
    Management Services (OMS) is responsible for the
    overall administration of the charge card programs
    and management of the purchase card program.

    FCA maintains written policies and procedures related to the charge card programs in accordance with
    the requirements set forth in the Office of Management and Budget (OMB) Circular A-123, Appendix B,
    Improving the Management of Government Charge Card Programs. The requirements include an annual
    submission of the agency’s Charge Card Management Plan to OMB that outlines the agency’s system of
    internal controls over the charge card programs. In addition, the Government Charge Card Abuse
    Prevention Act of 2012 (Charge Card Act) supplemented the requirements with additional reporting and
    audit requirements and augmentation of existing controls. The Charge Card Act and the OMB
    Memorandum M-13-21, Implementation of the Government Charge Card Abuse Prevention Act of 2012,
    also mandated each Inspector General perform, at least annually, an assessment of charge card
    programs 1. Therefore, the Office of Inspector General completed a risk assessment and subsequently
    initiated this audit as part of our ongoing efforts in this area.

    Prior OIG Audit

    We issued an audit report in August 1998, FCA’s IMPAC (International Merchant Purchase Authorization
    Card) Program (A-98-03). The audit’s objective was to evaluate the effectiveness of the IMPAC program
    and review the policies and procedures for efficiency of operations. The audit found cardholders were
    not using the IMPAC as frequently as they should and procedures for receiving, reporting, and recording
    could be improved. The audit also found FCA needed to strengthen policies and procedures and


    1
     The Charge Card Act did not establish a threshold for purchase card programs; therefore, Inspectors General
    must perform an annual assessment of purchase cards. As part of our ongoing efforts, the FCA OIG performed an
    assessment of both travel and purchase charge card programs.



                                                          1
     randomly audit cardholders’ records. Lastly, the accounting codes needed to be simplified. FCA agreed
     to, and initiated action on, all recommendations.

     Prior OIG Inspections

     We also completed inspections on the purchase card program. The following list shows the two
     inspections performed:

        •   Distribution, Usage and Control of Purchase and Travel Cards at the FCA (I-09-01) - The objective
            of the inspection was to determine the effectiveness and efficiency of the implementation of
            the government purchase and travel cards at FCA. For purchase cards, the inspection found FCA
            had adequate safeguards and controls but needed to update the purchase card policy. FCA
            agreed and completed the actions.

        •   Government Purchase Card Program Inspection (I-02-07) – The objective was to determine the
            effectiveness and efficiency of the purchase card program at FCA. The inspection found the
            program was efficient and effective and continued to streamline the procurement process.
            However, the inspection found efficiencies could be gained. The review found:

                o   Cardholders used checks in instances where it was possible to pay by credit card;
                o   One noncredit cardholder used a card of another cardholder;
                o   Internal audits had not always been performed;
                o   Cardholders had not kept purchase activity logs or supporting documentation, as
                    required;
                o   The process for prospective purchases was not always followed; and,
                o   Use of the corporate credit card needed to be addressed.

              FCA agreed to and resolved all of the recommended actions.


OBJECTIVE, SCOPE, AND METHODOLOGY

     The objective of this audit was to determine whether FCA’s oversight of the purchase card program is
     effective. We conducted field work at FCA’s Headquarters in McLean, VA from May through August
     2014. We limited our scope to Fiscal Year 2013 and October 1 - May 15 of Fiscal Year 2014.

     The following steps were taken to accomplish the objective:

        •   Reviewed applicable laws and regulations and relevant guidance related to charge card
            programs.

        •   Reviewed FCA policies and procedures related to charge card programs.

        •   Obtained background information for the GSA SmartPay programs.

        •   Interviewed FCA officials on internal policies and procedures.




                                                        2
   •    Requested and reviewed the listing of all active purchase card accounts, limits, and approving
        authorities as of May 2014.

    •   Judgmentally sampled 3 of the 19 cardholders’ training records based on position, transactions,
        and overall activity levels. Because our sample was judgmental and not statistically sampled, we
        cannot project our conclusions to the entire population.

    •   Analyzed FCA’s purchase card transactions for compliance with laws, regulations, and FCA
        policies and procedures. We judgmentally sampled 471 transactions based on: transaction
        amounts, merchant code categories, purchase descriptions, and dates. Because our sample was
        judgmental and not statistically sampled, we cannot project our conclusions to the entire
        population.

    •   Reviewed selected transactions for approvals, documentation supporting purchases, and
        annotations on the purchase activity logs.

    •   Reviewed Citibank statements for selected transactions.

This audit was performed in accordance with Generally Accepted Government Auditing Standards.
Those standards require we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We assessed
internal controls and compliance with laws and regulations to the extent necessary to satisfy the
objective. Our review would not necessarily have disclosed all internal control deficiencies that may
have existed at the time of our audit. We assessed the computer-processed data relevant to our audit
objective and determined the data was sufficiently reliable. Overall, we believe the evidence obtained
provides a reasonable basis for our conclusions based on our audit objective.




                                                   3
AUDIT RESULTS

     During our review, we found FCA’s oversight is effective. FCA established and implemented controls
     over the purchase card program; therefore lowering the risk to the agency. Specifically, FCA established
     a process for reviewing purchase card activity. Approving Officials have a defined role in the purchase
     card program and are required to review all purchase activity for their respective cardholders. OMS
     officials also review the purchase card activity monthly. Overall purchase cardholder requirements are
     fully described. Only current FCA employees have purchase card accesses and no exceptions were
     noted during our review of selected training records. Both FCA and BFS completed reviews of the
     purchase card program. Lastly, cardholders generally had supporting invoices for purchases. We only
     noted one exception relating to supporting invoices and receipts. We found no instance of potentially
     fraudulent or illegal activity.

     However, changes will improve the purchase card program. We found a limited number of cardholders
     had not consistently followed established policies and procedures and certain processes need to be
     documented.

                       Established Purchase Card Policies and Procedures

     For the audit, we reviewed purchase activity for the Fiscal Year 2013 and October 1-May 15 of Fiscal
     Year 2014. We judgmentally sampled 471 transactions for further review. From our judgmental sample,
     we found 54 transactions from cardholders that had not followed FCA policies and procedures.

     We identified nine transactions totaling $1,968 from four field office cardholders related to
     unauthorized food purchases. Although this is a small amount, cardholders purchased meals for field
     offices, not light refreshments as defined in the FCA
     policies and procedures. For example, one cardholder
     charged $400 for a catered barbecue lunch, which
     included a $46 tip. Another cardholder charged a catered
     lunch from an Italian restaurant for $238, including a $22                       Total Food
     tip. Seven of the nine transactions related to food                       FY 13
                                                                              $843.44   Charges        FY 14
                                                                                                     $1,124.26
     purchases for FCA’s award ceremony for 2012 and 2013.                             $1,968.70
     The other two transactions related to food purchases for a
     Diversity Day celebration in 2012. Approvals were given
     to the field offices to charge expenses for the events.
     However, FCA’s policy on charge card operating
     procedures, Office Directive 6, states office directors can
     approve purchases of light refreshments for on-site meetings or training with the purchase card.
     Further, FCA’s Policies and Procedures Manual (PPM) 708 states payment for light refreshments may be
     approved when allowed by statute, such as necessary expenses for the honorary recognition of its
     employees. PPM 708 also defines light refreshments as light snacks and beverages other than meals.
     We found these charges only in field offices, not FCA headquarters.

     We also found cardholders had not kept supporting documentation for 45 transactions, as required.
     Office Directive 6 provides for specific documentation requirements and the overall purchasing process
     with the purchase card. The following chart summarizes the overall purchasing process:



                                                         4
                                                              Obtain and
                                                                                            Ensure
                                                               document
    Identify need               Confirm funding                                          compatibility, if
                                                            approval prior to
                                                                                           applicable
                                                               purchase




  Complete entry in                                                                          Ensure
                                   Document                     Complete
  Purchase Activity                                                                        appropriate
                                  transaction                  transaction
        Log                                                                                  source




                                Provide log and
                                                             Retain files and
       Reconcile                  all backup
                                                               supporting
       statement               documentation to
                                                             documentation
                               Approving Official




During our review, we found cardholders had not always followed the process. Specifically, we found:

   •    Four cardholders had not documented approvals received prior to purchases. FCA policy states
        cardholders are responsible for making purchases only for official government use and after
        approval by the Approving Official. FCA’s Purchase Activity Log, Form 458, also states the
        Approving Official’s signature is required prior to purchase. We identified 25 transactions that
        lacked supporting documentation showing approval prior to the purchases. We also found this
        was an area annotated as a finding in the 2011 and 2012 reviews conducted by BFS, showing a
        systemic weakness.

   •    One cardholder, which has the second-highest purchase card limit in FCA, had not always used
        the purchase activity log as required. FCA’s Office Directive 6 states cardholders must complete
        an entry in the purchase activity log for each purchase and forward the log and all backup
        documentation to the Approving Official each month. We found three transactions not
        annotated on the log, with one transaction totaling over $24,000. For two of the transactions,
        the cardholder did not keep a purchase activity log for the month. For the remaining
        transaction, the cardholder had not entered the selected transaction on the monthly log.

   •    Two cardholders did not have preapprovals documented or have purchase activity log
        annotations for ten transactions. One individual used a credit card log for transactions, but not
        the required purchase activity log. The log used did not contain the same information or have
        the required fields. In addition, this cardholder’s Approving Official had not reviewed the
        purchase activity log and supporting documentation as required, and the cardholder had not
        documented preapprovals for the selected transactions. The other cardholder maintained a
        purchase activity log, but had not documented certain transactions and the corresponding
        preapprovals.




                                                    5
    •   Five cardholders had not justified the use of a convenience check in supporting documentation.
        FCA’s 2014 Charge Card Management Plan states convenience checks are a tool intended only
        for use with merchants that do not accept purchase cards and as a last resort. The purchase
        activity log states documentation is needed that the vendor would not accept the purchase card
        and no other sources were available. While the use of the convenience checks seemed
        reasonable, documentation justifying the use was missing.

    •   Two cardholders each had one transaction containing errors. One of the cardholder had an
        amount incorrectly annotated on the purchase activity log as $1550 instead of the actual $1900
        charge. Another cardholder had documentation supporting an expense of $600 instead of the
        $800 paid. The cardholder stated there was an additional cost from agreed-upon price, but the
        files did not contain any documentation supporting the $200 increase.

We found there is a limited understanding of policies and procedures. For example, the field office
cardholders who purchased food documented the purchase approvals. It appeared the cardholders
lacked an understanding of the light refreshments policy. Cardholders are required to take training at
issuance of the purchase card and a refresher training is only required every three years. FCA has not
issued any communications, reminders, or updates to cardholders specific to use and control over the
purchase card except emails approving light refreshments as part of the award ceremony.

We also found several cardholders did not fully understand standard agency buys. Specifically, the
purchase activity log states preapprovals are not necessary if the items are standard agency buys and
the designation form from the Approving Official lists the items/services that are considered standard
agency buys. For example, standard agency buy lists could include low-risk purchases such as office
supplies and mailing expenses. Several cardholders inconsistently completed a standard agency buy
form with one listing items allowed in a document and another listing purchase examples in an email.
One cardholder listed purchases as standard agency buys, but did not have a signed designation form
from the Approving Official. A different cardholder listed a purchase as a standard agency buy and had a
signed designation, but the purchased item was not on the list. Standard agency buy designations
streamline the approval process. A standardized form could result in efficiencies to FCA by reducing the
amount of oversight and documentation required for standard, low-risk purchases.

Agreed Upon Actions 1-2

To enhance cardholders’ understanding of FCA policies and procedures, OMS will:

    1. Provide education to cardholders and Approving Officials on the light refreshments policy and
       the preapproval, purchase activity log, convenience check, and documentation requirements.

    2. Distribute a template of an acceptable standard agency buy form.

Management Response

OMS plans to issue information to all cardholders on the light refreshment policy and the purchase card
documentation requirements. On September 4, 2014, OMS distributed a template of an acceptable
standard agency buy form to all purchase cardholders. The distribution instructed cardholders to use




                                                   6
the form, have the form signed by the Approving Official, and maintain it with purchase card activity log
documents.

                                   Undocumented Processes

We also found certain purchase card processes need to be documented. OMS had not documented the
reasoning behind three cardholders’ limits that were higher than the standard amount. Currently, 19 of
the approximate 280 FCA employees have purchase cards. Of the 19 purchase cardholders, 14 have the
standard limits of $3,000 per transaction and $10,000 per month. Five purchase cardholders have limits
other than the standard amounts as noted in the chart below:


                             Purchase Cardholder Limits
                                                                    $10,000 monthly and $3,000
                                                                    per transaction limits

                                                                    $5,000 monthly and $3,000 per
                                                                    transaction limits

                                                                    $15,000 monthly and $3,000
                                                                    per transaction limits

                                                                    $50,000 monthly and $10,000
                                                                    per transaction limits

                                                                    $50,000 monthly and $50,000
                                                                    per transaction limits

                                                                    $100,000 monthly and
                                                                    $100,000 per transaction limits



Four cardholders have higher limits than the standard amounts. One FCA office requested that OMS
grant a higher limit for one cardholder. The office provided a justification for the increase, which OMS
approved. For the other three cardholders, OMS provided an explanation of each individual’s
responsibilities within FCA showing the need for the purchase card. However, some of the information
was conflicting. For example, OMS stated the agency’s contracting officer completes purchases for all
offices with limits set at $100,000 per transaction and $100,000 per month. However, in an email
regarding procurement controls, OMS stated this individual’s card should only be used in emergency
situations or where a discussion has been initiated with the Chief Financial Officer or Chief Operating
Officer. FCA’s Office Directive 6 states employees outside of OMS shall be limited to $3,000 per
individual purchase, unless a bona fide need for a higher authorization is demonstrated. To increase
accountability and transparency, all higher limits should be justified and documented.

We identified a few current activities that deviate from policy. One mailroom cardholder excludes
certain purchases from the purchase activity log and does not receive prior approval on those
purchases. According to FCA officials, this procedure has been in place for many years and the
Approving Official agrees with the departure from policy because of the unique circumstances involving



                                                    7
certain transactions. We also found purchase cardholders reporting directly to board members, but
have the agency’s Contracting Officer as their Approving Official. While this is understandable given the
duties of an Approving Official, we identified inconsistencies. Some of the cardholders received
approvals or had final purchase documentation signed from the board members instead of their
assigned Approving Official. However, according to FCA policy, the Approving Official is required to do
the final approvals each month on the purchase activity. We understand circumstances may arise in
which deviations are necessary for efficiency and effectiveness. However, it is important the approved
deviations are documented and understood by all parties involved.

Agreed-Upon Actions 3-4

To improve purchase card processes, OMS will:

    3. Document justifications for cardholders with higher limits.

    4. Document exceptions to current processes and ensure purchase cardholders and Approving
       Officials understand the need for documenting approvals when departing from policies and
       procedures.

Management Response

OMS agreed to provide documentation for cardholders with higher limits. OMS also agreed to
document exceptions to current processes that would be signed by the purchase cardholders and
Approving Officials.

Overall, OMS agreed with the report and did not provide any comments. An exit conference was held
with management on August 27, 2014.




                                                    8
ACRONYMS


           BFS     Bureau of Fiscal Service

           FCA     Farm Credit Administration

           GSA     General Services Administration

           IMPAC   International Merchant Purchase Authorization Card

           OIG     Office of Inspector General

           OMB     Office of Management and Budget

           OMS     Office of Management Services




                                                 9
     R E P O R T

Fraud | Waste | Abuse | Mismanagement




          FARM CREDIT ADMINISTRATION

            OFFICE OF INSPECTOR GENERAL
• Phone: Toll Free (800) 437-7322; (703) 883-4316

• Fax:       (703) 883-4059

• E-mail:    fca-ig-hotline@rcn.com

• Mail:      Farm Credit Administration
             Office of Inspector General
             1501 Farm Credit Drive
             McLean, VA 22102-5090
